se E-Mail Address: 775 H Street, N.E.
Est. W947

briefs@wilsonepes.com Washington, D.C. 20002
WSO H TG Web Site: Tel (202) 789-0096
4 www.wilsonepes.com Fax (202) 842-4896
No. __-.

HERBERT H. SLATERY III,
Attorney General and Reporter of the State of Tennessee, et al.,
Applicants,
v.
BRISTOL REGIONAL WOMEN’S CENTER, P.C., et al.,
Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on April 5, 2021, an original and three copies of the Application for
Stay of the Judgment and Injunction Issued by the United States District Court for the Middle
District of Tennessee were delivered to the U.S. Supreme Court and one copy was served
electronically and via FedEx overnight courier service on the following counsel:

AUTUMN KATZ MAITHREYI RATAKONDA

CENTER FOR REPRODUCTIVE RIGHTS PLANNED PARENTHOOD FEDERATION OF AMERICA

199 Water Street, 22nd Floor 123 William Street, 9th Floor

New York, NY 10038 New York, NY 10038

Counsel for Respondents Bristol Regional Counsel for Respondent Planned Parenthood
Women’s Center, PC. and Memphis of Tennessee and North Mississippi
Center for Reproductive Health MICHAEL J. DELL

Scott TIFT KRAMER LEVIN NAFTALIS & FRANKEL LLP

BARRETT JOHNSTON MARTIN & GARRISON, LLC 1177 Avenue of the Americas

Bank of America Plaza New York, NY 10036

414 Union Street, Suite 900 Counsel for Respondents

Nashville, TN 37219
Counsel for Respondents

The following email addresses have also been served electronically:

akatz@reprorights.org
mai.ratakonda@ppfa.org
stift@barrettjohnston.com
mdell@kramerlevin.com
sarah.campbell@ag.tn.gov

 

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

sittig,, (
pefdeonse tify sth day of Aprif 20:

   
     
 

NOTARY’: %~ COLIN CASEY/foGAN
ea 82° | NoTaRY PUBLIC

 
  

   

Pusiic %

v8

District of Columbia
My commission expires April 14, 2022.
